                   U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                            Washington, DC 20416


                                                                        AUDIT REPORT
                                                              Issue Date: February 11, 2005
                                                              Report Number: 5-11

TO:            Allegra McCullough
                Associate Deputy Administrator for
                General Contracting and Business Development

               Darryl Hairston
                Assistant Administrator for Administration
                Office of Procurement and Grants Management


FROM:          Robert G. Seabrooks
                Assistant Inspector General for Auditing

SUBJECT:       Review of a Cooperative Agreement to HP Small Business Foundation

        Attached is a copy of the subject audit report. The report contains two findings
and two recommendations. Your response is synopsized in the report and included in its
entirety at Appendix B.

        The findings in this report are the conclusions of the Office of Inspector General’s
Auditing Division. The recommendations in this report are subject to review and
implementation of corrective action by your office in accordance with the existing
Agency procedures for audit follow-up and resolution. Please provide your management
decision for each recommendation to our office within 30 days from the date of this
report using the attached SBA Form 1824, Recommendation and Action Sheet.

       If you have any questions about the issues contained in the report, please contact
Garry Duncan, Director, Credit Programs Group, at (202) 205-[FOIA Ex. 2].

Attachments
                                          REVIEW OF
                          A COOPERATIVE AGREEMENT TO
                         HP SMALL BUSINESS FOUNDATION
                                 AUDIT REPORT NO. 5-11
                                        Washington, DC


                                     FEBRUARY 11, 2005




The findings in this report are the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and
corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not
be released to the public or another agency without permission of the Office of Inspector General.
                                  COOPERATIVE AGREEMENT TO
                                 HP SMALL BUSINESS FOUNDATION
                                         Washington, DC

                                                   Table of Contents

                                                                                                                              Page


SUMMARY ........................................................................................................................ i

INTRODUCTION

     A. Background ..............................................................................................................1

     B. Scope and Methodology ..........................................................................................1

RESULTS OF AUDIT

Findings and Recommendations

     1. The Recipient did not have an Appropriate Internal Financial
        Management System………………………………………………………………2

     2. The Recipient may have Sub-granted the Project in Violation of the
        Terms of the Cooperative Agreement

APPENDICES
     A – Audit Summary of Expenses Inappropriately Charged to the
         Cooperative Agreement
     B – Management Comments
     C – Audit Report Distribution
                                      SUMMARY

        The audit was accomplished to determine if the HP Small Business Foundation
(recipient) was in compliance with specific financial management requirements of Office
of Management and Budget (OMB) Circular A-110 and if costs incurred by the recipient
through July 31, 2004, were allowable, allocable, and supported.

       The audit disclosed that the recipient did not have an appropriate financial
management system for tracking costs in compliance with OMB Circular A-110 and
amounts claimed were not allowable, allocable and supported in accordance with OMB
Circular A-122 requirements. As a result, the following problems were identified:

   •   The recipient submitted approximately $1.1 million of costs which were either
       incurred prior to the subject cooperative agreement, not properly supported or
       lacked approval by the Small Business Administration (SBA).
   •   Contracting actions were not supported by written agreements with third parties
       and were not properly approved.
   •   Written procedures for screening and allocating costs and administering the
       cooperative agreement were inadequate.
   •   Costs were misclassified.
   •   The recipient did not certify the accounting system was adequate for government
       grants/cooperative agreements.
   •   Billings were not addressed to the recipient.
   •   The recipient may have subgranted the project to a third party in violation of the
       cooperative agreement.

    We recommend that the Associate Deputy Administrator for Government
Contracting and Business Development require the recipient to develop a financial
management system that meets the requirements of OMB Circulars A-110 and A-122.
Specifically, the recipient should:

   • Establish detailed written procedures for identifying, classifying, and eliminating
     costs that are not allowable, allocable, or supported.
   • Develop procedures for contract administration as required by OMB Circulars.
   • Request approval and provide copies of contracts or agreements for all
     contracting actions with third parties.
   • Require vendors and subcontractors to bill the recipient for all work performed
     under the cooperative agreement.

       We recommend that the Assistant Administrator for Administration in the Office
of Procurement and Grants Management:

   •   Request a legal opinion as to whether the arrangement between the recipient and
       SMA Global violated the terms of the cooperative agreement regarding sub
       granting.



                                            i
       The Office of Government Contacting and Business Development and the Office
of Procurement and Grants Management generally concurred with the findings and
recommendations.




                                         ii
A. Background

        The BusinessLinc Legislation gives SBA the statutory authority to enter into cooperative
agreements with any coalition of private or public entities to: (1) expand business to business
relationships; and (2) provide businesses with online information and a database of companies
that are interested in mentor-protégé programs or community-based, statewide, or local business
development programs. To be eligible for an award, a coalition must provide an amount, either
in kind or in cash, equal to the grant amount.

       SBA negotiated a $2.24 million cooperative agreement with the recipient on
September 17, 2003, to conduct business matchmaking events. The total budget for the
agreement consisted of $1 million in Federal funds and $1.24 million of Non-Federal matching
contributions. The period of performance was September 30, 2003, through September 30, 2004.
A no cost extension for one year through September 30, 2005, was granted by the Office of
Procurement and Grants Management on September 10, 2004. As of July 31, 2004, the recipient
had conducted three matchmaking events and five workshops in six major cities. The recipient
reported total project costs of $1,296,104 as of July 31, 2004, and requested from the SBA
reimbursement for costs incurred of $601,324.

B. Scope and Methodology

        The objective of the audit was to determine if: (i) the recipient was in compliance with
specific administrative requirements of OMB Circular A-110 regarding maintaining an
appropriate financial management system to track costs; and (ii) costs billed to SBA by the
recipient through July 31, 2004, were allowable, allocable, and supported.

       To address the stated objectives, we reviewed all available accounting records and the
SBA grant files in support of the agreement. Additionally, we reviewed invoices submitted for
reimbursement by the recipient. Finally, we interviewed the recipient’s director, the accountant,
and SBA officials involved in administering the cooperative agreement.

       Audit fieldwork was performed from September through November 2004. The fieldwork
was performed in Glendale, CA, Calabasas, CA, and Washington, DC. The audit was conducted
in accordance with generally accepted Government Auditing Standards.




                                                 1
                                        RESULTS OF AUDIT

FINDING 1 The Recipient did not have an Appropriate Internal Financial Management
          System

        The Recipient lacked an internal financial management system that met the standards
prescribed by OMB Circular A-110. As a result:

   •   reimbursement was requested for pre-award ($168,763) and unsupported ($214,004)
       costs,
   •   contracting actions with third parties were not supported by written agreements or
       properly approved by SBA ($992,192),
   •   written procedures for screening costs and administrating the agreement were inadequate,
   •   costs were misclassified,
   •   the recipient did not certify that the financial management system was adequate for
       administering the cooperative agreement, and
   •   billings from third parties were not addressed to the recipient.

Pre-award and unsupported costs

       The recipient’s request for reimbursement included $168,763 of expenses that were
incurred before the cooperative agreement was awarded. In addition, there was no support for
expenses of $214,004. We also identified $992,192 of vendor cost that were not supported by a
contract or approved by SBA (See Appendix A for a summary of expenses inappropriately
charged to the cooperative agreement).

        Pre-award costs were incurred prior to the cooperative agreement performance period.
The original project performance period was September 30, 2003, through September 30, 2004.
According to the cooperative agreement funds must be used solely to obtain goods and services
related to the project. Additionally, OMB Circular A-122 states that costs are allocable to a
Federal award if they are incurred specifically for the award. Of the $168,763 in pre-award
costs, the recipient submitted for reimbursement $58,862 in checks that were for personal
services (budget category) expenses incurred on or prior to October 1, 2003. The recipient’s
contracted employee activity reports also did not reconcile to the checks submitted for payment.
We identified a total of 21 vendors with pre-award costs. Because these costs were incurred
prior to the start of the performance period and may not have been applicable to the cooperative
agreement, these costs were considered unallowable.

        Costs were considered unsupported if they lacked an invoice or canceled check. The
recipient requested reimbursement for $214,004 of cost that lacked an invoice or canceled check.


                                                2
OMB Circular A-122 requires that the recipient provide adequate supporting documentation
when reimbursement for expenses incurred on a cooperative agreement is requested. The
recipient requested reimbursement for costs that did not have invoices or the invoice provided
covered only a portion of the amount requested. Additionally, the recipient requested
reimbursement for costs that had no canceled check or the check was less than the requested
reimbursement. At a minimum, the recipient should provide the vendor’s invoice and canceled
checks as proof of payment.

       Approval of cost expenditures

       OMB Circular A-110 states that certain actions require prior government approval,
including plans for contracting with others to perform work covered by an award. The
cooperative agreement stated that all contracts, other than those submitted as part of the proposal
required the written approval of SBA. Copies of all contracts for services furnished by
contactors should be provided to SBA officials and maintained in the grant file. Contractual
costs not authorized by SBA were deemed unsupported.

        We questioned $992,192 of contractual costs which were not approved by SBA. The
recipient requested reimbursement for cost related to 63 vendors without contracts or prior SBA
approval. To illustrate, the recipient identified 53 vendors in the contractual budget category of
the cooperative agreement. We did not find any written contracts or approvals for these vendors.
Also, the recipient’s project director stated that the eight employees identified under personal
services were all contractual, and again there were no contracts or approvals for these
individuals.

Inadequate written procedures for screening costs and contract administration of the
cooperative agreement

       The recipient‘s written procedures for screening costs were inadequate. Their operational
and financial guidelines for screening costs contained the single statement: “all personnel
providing services for this Cooperative Agreement have acknowledged that all performance
standards, guidelines, rules and regulations set forth in applicable OMB booklets apply to all
personnel providing services pursuant to this Cooperative Agreement”.

        OMB Circular A-110 requires that a recipients’ financial management system provide
written procedures for determining the reasonableness, allocability, and allowability of costs in
accordance with the provisions of the applicable Federal cost principles and the terms and
conditions for the award. The written procedures provided by the recipient lacked both adequate
detail and guidance to individuals (employees) performing under the government award.




                                                 3
        The recipient’s written procedures for contract administration were also inadequate. Both
the cooperative agreement and OMB Circulars required a system for contract administration be
maintained to ensure that contractors perform in accordance with the terms, conditions, and
specifications of the contracts. Their written procedures only requested that the vendor accept all
terms and conditions set forth by the SBA and the U.S. Government.

Cost were misclassified

       The recipient did not properly classify incurred costs under the appropriate approved
budget category (i.e., food and meeting room cost classified as travel cost). Twelve transactions
included costs that appeared to be misclassified by budget category. To explain, each budget
category has an approved amount which should not be exceeded. If the recipient incurred
expenses in excess of the budgeted amount, these costs would be unallowable without a
preapproved modification to the agreement.

Accounting System Certification

        The cooperative agreement required the recipient to certify that its accounting system met
OMB requirements. While the certification letter stated that an internal accounting system
existed, it did not certify that the system met OMB Circular A-110 requirements. Since the
recipient did not state that the system met the standards of the OMB Circular, SBA should have
determined whether the recipient’s accounting system was adequate for administering the
cooperative agreement.

Billings addressed to SMA Global

        The majority of invoices submitted for payment to SBA were addressed to SMA Global
not the recipient. Since SMA Global is an active company, any billings to them must be
carefully evaluated to determine if the service or product was provided to SMA Global or to the
recipient. To illustrate, SMA Global had two purchase orders with SBA in September 2003.
Consequently, some of the preaward costs mentioned above may relate to services or products
provided to SMA Global under their purchase orders and not costs related to the recipient’s
cooperative agreement.


Recommendation

We recommend that the Associate Deputy Administrator for Government Contracting and
Business Development require the recipient take the following action:

1.A. Develop a financial management system that meets the requirements of OMB Circulars


                                                4
     A-110 and A-122. The recipient should:

              • Establish detailed written procedures for identifying, classifying, and
                eliminating costs that are not allowable, allocable, or reasonable.
              • Develop procedures for contract administration with third parties as required by
                OMB Circulars.
              • Request approval and provide copies of contracts/agreements for all contracting
                actions.
              • Require vendors/subcontractors to bill the recipient for all work performed
                under the cooperative agreement.


FINDING 2 The Recipient may have Sub-granted the Project in Violation of the Terms of
           the Cooperative Agreement.

        The recipient may have entered into an arrangement that had the effect of sub-granting
the project to a third party for-profit company in violation of the cooperative agreement terms.
The cooperative agreement states the project is not to be sub-granted. The recipient appears to
be a shell organization--run by a project director hired by the organization that created the
foundation and executed by contracted employees. As a result, there is a question as to whether
the HP Foundation cooperative agreement is run and controlled by SMA Global.

        According to OMB Circular A-110, the recipient is an organization receiving financial
assistance directly from a Federal awarding agency to carry out a project or program. OMB
Circular A-133 defines a sub-recipient (sub-grantee), as non-Federal entities that expend Federal
awards received from a pass-through entity to carry out a Federal program. The circular further
identifies the activities executed by a sub-recipient of a Federal award. Activities include:
       (1)    determination of who is eligible to receive Federal financial assistance;
       (2)    measuring performance against whether the objectives of the Federal program are
              met;
       (3)    responsibility for programmatic decision making; and
       (4)    responsibility for adherence to applicable Federal program compliance
              requirements.

       Specifically, our audit showed the following conditions existed which indicate possible
sub-granting of the cooperative agreement:

             o The former Associate Deputy Administrator of the Office of Government
               Contracting and Business Development stated in a May 21, 2003, (prior to award
               of the agreement) e-mail “HP has hired a contractor named SMA Global to



                                                5
               manage the project. SMA Global has in-turn hired several companies as
               subcontractors to work on the project at their direction”.

           o The original Grant Officer Technical Representative expressed concerns that the
             project was being sub-granted in an October 22, 2003 e-mail where she stated “ I
             still have concerns about what percentage of the cooperative agreement is being
             ‘subcontracted’ to SMA Global, and to what extend HP Foundation, as the
             agreement recipient, is actually overseeing/providing direction for this
             cooperative agreement”.

           o The President/CEO of SMA Global was hired by Hewlett Packard to manage the
             cooperative agreement as project director. While his name is listed on the
             cooperative agreement as the project director, he is not paid with funds from the
             agreement, as included in the approved budget. Hewlett Packard pays the project
             director’s salary.

           o There is no formal agreement in the grant file between the recipient and SMA
             Global to manage the cooperative agreement.

           o The recipient does not have nor has it ever had employees. The project director
             contracts employees in order to execute the cooperative agreement.

           o Most of HP Foundation’s contracted employees are the same individuals
             identified as contractors on SMA Global’s website. Some of the individuals are
             also affiliated with Worldbridge, a subsidiary of SMA Global. Consequently, the
             recipient contractors are the same pool of individuals affiliated with SMA Global.

           o Outside vendors were contracted to execute functions required by the agreement.

           o The recipient is physically located and operates in office space within SMA
             Global, the project director’s company facility.

Recommendation

We recommend that the Assistant Administrator for Administration in the Office of Procurement
and Grants Management take the following action:

2.A. Request a legal opinion as to whether the arrangement between the recipient and SMA
     Global violated the terms of the cooperative agreement regarding sub-granting or awarding
     the cooperative agreement to a sub recipient. The opinion should address whether the
     activities by the recipient were conducted at arm’s length given the nature of related party
     affiliation of the principal entities administering the project. The organization (the


                                                6
     recipient) accepting the award has the obligation to honor the terms and conditions of the
     cooperative agreement and comply with applicable OMB Circulars.

Management Comments

       The Office of Government Contacting and Business Development (GCBD) concurred
with the findings and recommendations.

        The Office of Procurement and Grants Management (OPGM) stated that they generally
concur with the findings in the report with minor exceptions. Specifically, OPGM stated that the
report should identify the Federal share of the costs questioned. The response indicated the OIG
inaccurately stated facts and incorrectly applied grants law as it relates to pre-award costs.
OPGM stated that OMB Circular A-110 authorizes Federal awarding agencies to waive cost-
related and administrative prior written approvals. This Circular is incorporated into the
cooperative agreement by the terms of the Notice of Award. They also added that SBA has a
practice of permitting recipients to be reimbursed without advance approval for pre-award cost.

    OPGM officials further stated the report should be amended to state that the requirement for
certification of the accounting system was included in the terms and conditions of the
cooperative agreement. The report also should note that OPGM notified the recipient that the
proper certification had not been provided and was required. In addition, the report should note
that it was concerns regarding the accounting system that led to the request for audit and that the
recipient has subsequently provided proper certification.

   OPGM concurred with the OIG’s request to have a legal opinion as to whether the recipient
may have sub-granted the project in violation of the terms of the cooperative agreement.

OIG Evaluation of Management Comments

       GCBD’s Management comments to the findings and recommendations are responsive.

        OPGM stated that the report should identify the Federal share of the costs questioned.
The OIG report stated that the requested reimbursement of $1.1 million for cost were either
incurred prior to the cooperative agreement, not properly supported or lacked approval by the
SBA. We did not specifically identify the Federal share of the cost questioned because all cost
submitted for reimbursement under this cooperative are required to be allowable per the terms
and conditions of the cooperative agreement. In addition, the recipient’s accounting system was
not in compliance with Federal requirements and information on the Federal and non Federal
share was not clearly identified in the available records for the cooperative agreement.




                                                 7
        OPGM stated that the OIG misstated facts and incorrectly applied grants law. The OIG
does not agree that it has misstated facts or incorrectly applied grants law. We do agree that the
cooperative agreement incorporates provisions of OMB Circular A-110 and under A-110 the
SBA can waive the pre-approval of costs incurred prior to the award. However, there was no
evidence that a waiver was used and the circumstances in this instance are complicated by the
existence of other SBA agreements which provided funds for similar activities immediately prior
to the effective date of the cooperative agreement. Accordingly, the provision of Circular A-110
paragraph 25 (e) (1) does not fully address the condition where costs incurred prior to the
effective date of the cooperative agreement may have applied to another government program or
agreement. Notwithstanding the OPGM practice to permit pre-award costs incurred within 90
days of the effective date of the award under this provision of Circular A-110, an analysis of
specific costs is needed in this instance to ensure costs are proper and are not charged to more
than one Federal agreement or program.

        OMB Circular A-122 requires that costs are allocable to an award if they are incurred
specifically for that award. It further states that costs may not be shifted to other Federal awards
to overcome funding deficiencies. The cooperative agreement also requires that the recipient not
use award funds in such a way as to duplicate any existing SBA program or SBA funded efforts.
SMA Global, the company managing HPSBF, had two purchase orders with SBA during the
month of September 2003. SMA Global was also the Business Matchmaking authorized
representative of Hewlett Packard under a co-sponsorship agreement which was terminated as of
September 30, 2003. The performance period of the HPSBF cooperative agreement began
September 30, 2003.

        In addition, during the audit exit conference, the HPSBF project director and CEO of
SMA Global, stated that he was told by SBA officials that he could include costs incurred under
the aforementioned co-sponsorship in his request for reimbursement for the cooperative
agreement. Our discussions with OPGM and review of the grant file did not disclose any
documented approval allowing HPSBF to charge cost from the co-sponsorship agreement to the
current cooperative agreement. Accordingly, in order to determine if the costs submitted for
reimbursement were related to the cooperative agreement, HPSBF must provide the SBA with
the necessary information to make a determination as to which agreement or contract benefited
from the pre-award costs submitted for reimbursement.

        In response to OPGM’s statement regarding the HPSBF certification letter, the report
already includes a statement that the cooperative agreement required the recipient to certify that
its accounting system met OMB requirements and accordingly we have not made a change to the
report. Lastly, OPGM states that the report should indicate that it notified HPSBF to provide a
proper certification and HPSBF has now provided the proper certification. The OIG has not
received a copy of the notification or the proper certification and has not audited any information
that would substantiate this assertion.


                                                 8
       OPGM concurred with the OIG’s request to have a legal opinion regarding the sub-
granting issue.




                                             9
                                                                                                    Appendix A
                                                                                                     Page 1 of 4

    Audit Summary of Expenses Inappropriately Charged to the Cooperative Agreement


                                                                        Unallowable or Unallocable Cost1
                                   Amt Billed to                                                    No
                                   Cooperative       Questioned       Preaward   Inadequate Contract or
           Vendor #                 Agreement          Cost             Cost       Support       Approval
    CONTRACTUAL
             1                         $6,250.00        $6,250.00       $6,250.00      $6,250.00       $6,250.00
             2                        $26,053.37       $26,053.37                     $26,053.37      $26,053.37
             3                        $61,356.50       $61,356.50                                     $61,356.50
             4                        $10,315.47       $10,315.47                                     $10,315.47
             5                        $12,234.42       $12,234.42                                     $12,234.42
             6                        $15,528.13       $15,528.13                                     $15,528.13
             7                         $1,895.00        $1,895.00                                      $1,895.00
             8                         $6,006.06        $6,006.06                                      $6,006.06
             9                         $2,000.00        $2,000.00                                      $2,000.00
            10                       $201,288.29       $17,588.33       $5,000.00     $17,588.33
            11                          $455.00          $455.00                                        $455.00
            12                        $53,622.91       $53,622.91                     $34,741.00      $53,622.91
            13                        $15,000.00       $15,000.00     $15,000.00                      $15,000.00
            14                        $53,671.03       $53,671.03                      $6,497.66      $53,671.03
            15                        $15,500.00       $15,500.00                                     $15,500.00
            16                          $858.50          $858.50                                        $858.50
            17                        $34,438.00       $34,438.00     $14,326.00                      $34,438.00
            18                         $1,800.00        $1,800.00      $1,800.00                       $1,800.00
            19                        $72,854.62       $72,854.62     $21,400.00                      $72,854.62
            20                        $12,575.34       $12,575.34      $8,225.34                      $12,575.34
            21                          $958.01          $958.01                                        $958.01
            22                        $19,065.71       $19,065.71                                     $19,065.71
            23                         $3,000.00        $3,000.00                                      $3,000.00
            24                         $1,722.36        $1,722.36       $1,722.36                      $1,722.36
            55                         $3,172.32        $3,172.32                      $3,172.32       $3,172.32
            56                        $16,572.22       $16,572.22                                     $16,572.22
            57                        $22,480.49       $22,480.49                                     $22,480.49
            58                          $200.00          $200.00                                        $200.00
            59                          $200.00          $200.00                                        $200.00




1
  Cost may have been questioned for any and/or all of the aforementioned reasons. Specifically, a particular invoice may include
pre-award costs, unsupported costs, and/or costs that did not include a contract or contract approval. As result, costs associated with
a particular invoice may be included in each category. For instance, vendor number one had pre-ward cost, unsupported costs, and
was missing a contract and contract approval. Therefore, we included the $6,250 amount under pre-award costs, unsupported costs,
and no contract or contract approval.
                                                                                 Appendix A
                                                                                  Page 2 of 4

 Audit Summary of Expenses Inappropriately Charged to the Cooperative Agreement


                                                        Unallowable or Unallocable Cost1
                        Amt Billed to                                               No
                        Cooperative     Questioned    Preaward   Inadequate Contract or
      Vendor #           Agreement        Cost          Cost       Support       Approval
CONTRACTUAL (Cont.)
         60                 $300.00        $300.00                                  $300.00
         61                 $300.00        $300.00                                  $300.00
         62                 $300.00        $300.00                                  $300.00
         63                 $300.00        $300.00                                  $300.00
         64                 $300.00        $300.00                                  $300.00
         65                 $548.00        $548.00                                  $548.00
         66                 $900.00        $900.00                                  $900.00
         67                $1,000.00      $1,000.00                                $1,000.00
         68                $1,200.00      $1,200.00                                $1,200.00
         69                $2,968.00      $2,968.00                  $2,968.00     $2,968.00
         70                $2,364.05      $2,364.05                                $2,364.05
         71                $1,100.00      $1,100.00                   $500.00      $1,100.00
         72                $2,676.23      $2,676.23                  $2,168.28     $2,676.23
         73               $10,624.50     $10,624.50                 $10,624.50    $10,624.50
         74                $3,232.78      $3,232.78                                $3,232.78
         75               $10,000.00     $10,000.00                               $10,000.00
         76                $1,500.00      $1,500.00                  $1,500.00     $1,500.00
         77                $1,904.00      $1,904.00                  $1,904.00     $1,904.00
         78                $1,441.96      $1,441.96                  $1,441.96     $1,441.96
         79                 $774.20        $774.20                    $774.20       $774.20
         80               $16,275.20     $16,275.20                 $16,275.20    $16,275.20
         81                $1,500.00      $1,500.00                  $1,500.00     $1,500.00
         82                 $825.00        $825.00                    $825.00       $825.00
         83                $4,000.00      $4,000.00                  $4,000.00     $4,000.00
  TOTAL CONTRACTUAL      $737,407.67    $553,707.71   $73,723.70   $138,783.82   $536,119.38
                                                                                  Appendix A
                                                                                   Page 3 of 4

 Audit Summary of Expenses Inappropriately Charged to the Cooperative Agreement

                                                          Unallowable or Unallocable Cost1
                          Amt Billed to                                               No
                          Cooperative     Questioned    Preaward   Inadequate Contract or
        Vendor #           Agreement        Cost          Cost       Support       Approval
OTHER
           25               $52,950.00     $52,950.00                              $52,950.00
           26                 $982.25
           27                $7,700.00      $7,700.00    $7,700.00
           28               $46,179.50     $46,179.50    $5,628.75   $14,605.50    $46,179.50
           29               $11,104.50      $5,719.00    $5,719.00
           30               $20,000.00     $20,000.00    $5,000.00   $20,000.00
           31                $5,680.00          $0.00
           32                $2,500.00      $2,500.00    $2,500.00    $2,500.00
           33                $3,679.52          $0.00
           84                $4,372.05          $0.00
           85                $3,000.00      $3,000.00                 $3,000.00
           TOTAL OTHER     $158,147.82    $138,048.50   $26,547.75   $40,105.50    $99,129.50

PERSONAL SERVICES
           34                $3,037.50      $3,037.50    $3,037.50                  $3,037.50
           35               $21,804.47     $21,804.47    $2,000.00                 $21,804.47
           36              $113,500.00    $113,500.00   $24,000.00                $113,500.00
           37               $10,500.00     $10,500.00   $10,500.00                 $10,500.00
           38               $16,521.01     $16,521.01    $6,324.28                 $16,521.01
           39               $66,000.00     $66,000.00   $15,000.00                 $66,000.00
           40               $34,563.46     $34,563.46                              $34,563.46
           86               $16,857.71     $16,857.71                              $16,857.71
        TOTAL PERSONAL
                           $282,784.15    $282,784.15   $58,861.78                $282,784.15
               SERVICES

SUPPLIES
           41                $8,675.83
           42                $2,951.63      $2,951.63    $2,951.63
           43               $11,711.83      $6,678.38    $6,678.38
           44                $4,364.40      $2,588.73                 $2,588.73
           45                $1,006.44
         TOTAL SUPPLIES     $28,710.13     $12,218.74    $9,630.01    $2,588.73         $0.00
                                                                                     Appendix A
                                                                                      Page 4 of 4

Audit Summary of Expenses Inappropriately Charged to the Cooperative Agreement

                                                           Unallowable or Unallocable Cost1
                         Amt Billed to                                                 No
                         Cooperative      Questioned     Preaward   Inadequate Contract or
         Vendor #         Agreement         Cost           Cost       Support       Approval
TRAVEL
           46               $1,762.20
           47                $345.20          $345.20                     $345.20
           48                $497.64          $497.64                     $497.64
           49                $711.74          $711.74                     $711.74
           50                $336.22
           51              $28,430.45      $28,430.45                                 $28,430.45
           52              $45,728.14      $45,728.14                   $19,728.14    $45,728.14
           53               $3,617.60       $3,617.60                    $3,617.60
           54               $7,625.51       $7,625.51                    $7,625.51
          TOTAL TRAVEL     $89,054.70      $86,956.28                   $32,525.83    $74,158.59


     TOTAL BILLED TO
                         $1,296,104.47   $1,073,715.37   $168,763.24   $214,003.88   $992,191.91
         AGREEMENT
